WAIVE

Supreme Court, U.S.
FILED

7

MAR 0 8 2021

SUPREME COURT OF THE UNITED STA EgICE OF THE CLERK
No.

20-7203

Chiron Sharrol Francis

Texas

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

Q

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic. Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street NE, Washington, D.C. 20543).
Signature:
Date:

3/3/21

(Type or print) Name Jason Bennyhoff
Mr.

Cl Ms.

Cl Mrs.

Firm

Fort Bend County District Attorney's Office

Address

301 Jackson Street

City & State

Richmond, Texas

Phone

(281) 238-3352

Cl Miss

Zip 77469
Email ason.bennyhoff@fortbendcountytx.gov

RECEIVED
A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of senritARr toGeMier is required.

cc:

Counsel for Petitioner: Leonard Thomas Bradt, 14090 Southwest FretagggitgaftliVa Land,
Texas 77478, Itbradt@flash.net

